                              United States Department of Agriculture
                                      Office of Inspector General
                                        Washington, D.C. 20250



DATE:            August 31, 2011

AUDIT
NUMBER:          09703-1-At (2)

TO:              Dallas Tonsager
                 Under Secretary
                 Rural Development

FROM:            Gil H. Harden /S/
                 Assistant Inspector General
                  for Audit

SUBJECT:         Rural Utilities Service Needs to Improve Project Transparency for the Water and
                 Waste Disposal System Recovery Act Projects

The Rural Utilities Service (RUS) is a Rural Development agency within the Department of
Agriculture (USDA) that administers the Water and Waste Disposal System Program and
provides loans and grants for sewer, storm water, and solid waste disposal systems in cities and
towns having populations up to 10,000 people. As part of the American Recovery and
Reinvestment Act of 2009 (Recovery Act), Congress provided USDA with $28 billion in
funding.1 Approximately2 $3.8 billion of those funds were designated for RUS’ Water and
Waste Disposal System Program. As of September 30, 2010, RUS obligated $3.3 billion in
Recovery Act loans and grants for water and waste disposal systems in rural areas throughout the
United States.

In the Recovery Act, Congress emphasized the need for Federal agencies to be accountable and
transparent in the expenditure of Recovery Act funds. Subsequently, the Office of Management
and Budget (OMB) issued guidance3 that required Federal agencies to establish rigorous internal
controls, oversight mechanisms, and other approaches to meet the accountability objectives of
the Recovery Act. The role of the USDA’s Office of the Inspector General (OIG) is to oversee
and evaluate USDA agencies’ activities, thereby fostering accountability and transparency in
meeting the provisions and intentions of the Act. This Fast Report addresses issues we found
with the transparency of the program’s projects. This issue, along with any others identified, will
be compiled into the final report at the conclusion of our audit.



1
  Public Law 111-5, February 17, 2009.
2
  Funding decreased due to changes in the subsidy rate between fiscal years 2009 and 2010, as well as
reprogrammed amounts from loan to grant.
3
  Initial Implementing Guidance for the American Recovery and Reinvestment Act of 2009, dated February 18, 2009,
and Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009, dated April 3, 2009.
Dallas Tonsager                                                                                                    2


“Recovery.gov” is the Federal Government’s official website for data related to the Recovery
Act and a major source of information for the public. Agencies that received Recovery Act
funds are required to periodically report financial data on Recovery.gov, including their
obligations and expenditures. In addition to meeting these requirements, RUS needs to disclose
on the Recovery Act’s website the time needed to initiate construction of water and waste
disposal projects once funds are obligated and the impact such timing has on project spending
and job creation. RUS deems projects "started” at the time loan and/or grant funds are obligated.
However, actual project construction could be months or years after obligation, due to
preconstruction requirements, and most project spending and job creation occurs after the start of
project construction. Without RUS’ disclosure of project timing, the public may not fully
understand the progress of water and waste disposal projects in meeting the goals of the
Recovery Act.

It is critical that RUS be transparent as to the time needed to initiate construction of water and
waste disposal projects because of the goals of the Recovery Act. The Recovery Act has three
immediate goals to alleviate the economic crisis that include (1) creating new jobs and saving
existing ones, (2) spurring economic activity and investment in long-term growth, and
(3) fostering unprecedented levels of accountability and transparency in Government spending.
While many of Recovery Act projects are focused more immediately on jumpstarting the
economy, others, especially those involving infrastructure improvements, are expected to
contribute to economic growth for many years.

According to RUS, project spending begins at the time of obligation for the water and waste
disposal loan and grant program. Projects are approved at this time and have already completed
preliminary design, environmental reviews, and assessments. Projects are then ready to proceed
to final design and bid.4 Yet, there are several time-consuming steps that must be completed
after funds are obligated and prior to the start of actual construction, which include, but are not
limited to:

    ·    Completing the final design and submitting it to Rural Development, the State health
         department, and the State public service commission for review and approval;
    ·    Acquiring signed user agreements and collecting tap fees,5 (if new customers are added);
    ·    Acquiring applicable permits from the U.S. Army Corps of Engineers, Division of
         Highways, Public Land Corporation, or railroads;
    ·    Acquiring any new property and rights-of-way that are needed for the project;
    ·    Conducting an initial RUS compliance review;

4
  Final design entails final plans and specifications for projects. According to 7 Code of Federal Regulations
4280.115, final plans and specifications must be reviewed by the agency and approved prior to start of construction.
RUS Instruction 1780.72 provides that when competitive sealed bidding is applicable, an invitation for sealed bids is
publicly advertised and a firm-fixed-price contract is awarded to the responsible bidder whose bid, conforming to all
the material terms and conditions of the invitation for bids, is lowest, price and other factors considered.
Competitive sealed bids are the preferred procurement method for construction contracts.
5
  Fees associated with the establishment and connection of water and sewer lines.
Dallas Tonsager                                                                                                  3


    ·   Submitting proposed user rates;
    ·   Purchasing appropriate insurance coverage; and
    ·   Advertising for bids and contract awards.

Although we did not question the timeliness of RUS’ loan and grant making and processing for
water and waste disposal projects, RUS does not clearly convey to the public the additional time
it takes to begin actual construction once a project is obligated. To address this concern, RUS
needs to be more transparent with the public as to when its water and waste disposal projects
begin construction, since it is not immediately after funds are obligated.

We statistically selected and reviewed 22 of 430 RUS water and waste disposal projects, totaling
$189 million of the $1.6 billion in Recovery Act-funded obligations, as of September 30, 2009.6
During our fieldwork, we interviewed RUS officials and reviewed project documentation to
determine when project construction began. We also obtained data from Recovery.gov to
evaluate project expenditures and jobs created or saved.

Based on our review, project construction usually did not immediately follow the obligation of
funds for the projects in our sample. The actual construction for 3 of the 22 projects (totaling
$33 million) started within 4 months of the obligation date, the preferred time stated in the
Recovery Act. However, construction for 14 other projects (totaling $65.8 million) started 5 to
21 months after obligation of funds; while the remaining 5 projects (totaling $90.1 million) had
yet to reach the actual construction phase as of July 22, 2011. For these 5 projects, the
timeframes between funding obligation and estimated start of construction ranges from
25-36 months. In one instance, RUS obligated $22 million in Recovery Act funds for the
Atchison County, Missouri, Wholesale Water Commission project in June 2009. Project
officials initially estimated that construction for this project would start in February of 2011, or
over 20-months following the obligation of project funds (see exhibit A). When we contacted
RUS officials during July 2011, construction still had not begun for this project. RUS officials
estimate that it would be at least August 2011 before construction would start (26 months
following the obligation of funds).

We also determined that, prior to the construction phase, project spending may be minimal and
few jobs created. We found that 13 of the projects reported expenditures totaling $28.6 million
as of March 31, 2011 (see exhibit A). RUS estimated that 3,384 jobs would be created or saved
from our sample of 22 water and waste disposal projects. However, as of March 31, 2011, a total
of only 178 actual jobs had been reported on Recovery.gov as created or saved (see exhibit B).
RUS expects increased numbers in jobs created or saved as projects progress.

Without a clear understanding of when project construction begins, the public may misjudge the
progress of RUS’ water and waste disposal projects. By clarifying the time needed to initiate

6
 Therefore, our results are representative of all Recovery Act Water and Waste Disposal obligations made as of
September 30, 2009. The entire universe of Recovery Act Water and Waste Disposal projects as of September 30,
2010, is 854 projects, with a total of $3.3 billion in obligations.
Dallas Tonsager                                                                                   4


project construction following the obligation of funds and its impact on the timing of spending
and job creation, RUS can better inform the public of the water and waste disposal project
process.

Recommendation

Explain on Recovery.gov the time needed to initiate actual construction for each water and waste
disposal project following obligation of funds and this timeframe’s impact on the timing of
project spending and jobs created.
EXHIBIT A
Recovery Act Funds Obligation Dates, Amounts, Construction Dates, Expenditures, and Elapsed Time
                                                                                                                        0-4 Months      5-24 Months      25-36 Months
                                                                   Actual         Estimated       Expenditures
                                 Total RUS       Obligation                                                                from             from              from
 State         Project                                          Construction     Construction         Per
                                  Funding          Date                                                       7        Obligation to    Obligation to     Obligation to
                                                                 Start Date       Start Date      Recovery.gov                      8                9                10
                                                                                                                       Construction     Construction     Construction
         City of
  AL                            $15,199,000      May-2009                          Sep-2011                    $0                                              28
         Thomasville
  ID     City of Dubois            $964,000       Jul- 2009       Aug-2010                              $682,873                             13
         Town of
  IN                             $5,542,000       Jun-2009        Oct-2010                            $1,264,710                             16
         Montezuma
         Twin Lakes
  IN     Regional Sewer         $22,112,000       Jul-2009                         Aug-2011                    $0                                              25
         District
         Garrison-Quincy-
  KY     KY-O-Heights            $1,227,500      Aug-2009         Jun-2010                              $811,536                             10
         Water District
  LA     Town of Jonesville        $205,000       Jun-2009        Jan-2010                              $132,915                              7
         Town of
  ME                               $501,000      Aug-2009         Sep-2010                              $195,523                             13
         Farmington
  MI     City of Hancock         $4,000,000       Jul-2009        Apr-2011                                     $0                            21
         Atchison County
  MO     Wholesale Water        $22,000,000       Jun-2009                         Aug-2011                    $0                                              26
         Commission
         Clara Water
  MS                               $555,800      May-2009         May-2010                              $536,166                             12
         Association, Inc.
         Mt. Comfort Water
  MS                             $1,624,000      May-2009         Oct-2009                            $1,208,810                              5
         Association, Inc.


  7
    Recovery.gov recipient reporting data as of March 31, 2011.
  8
    For consistency among categories, actual or estimated start of construction dates were measured based on months.
  9
    See footnote 8.
  10
     Estimated as of July 22, 2011. See footnote 8.
                                                                                                                                                  Attachment A
                                                                                                                                                    Page 1 of 2
EXHIBIT A - Continued

                                                                                                                     0-4 Months     5-24 Months     25-36 Months
                                                                        Actual       Estimated      Expenditures
                                    Total RUS       Obligation                                                          from            from             from
  State            Project                                           Construction   Construction        Per
                                     Funding          Date                                                     11   Obligation to   Obligation to    Obligation to
                                                                      Start Date     Start Date    Recovery.gov                                                  12
                                                                                                                    Construction    Construction    Construction
              North Central
   ND         Consortium-             $3,019,900    May-2009          Oct-2009                         $3,019,900                        5
              Radar Hill
              Village of
   NM                                 $1,000,000     Jun-2009          Jul-2009                               $0         1
              Ruidoso Downs
   NY         Town of Volney            $964,500     Jun-2009         Apr-2010                          $801,890                         10
              Roland Utility
   OK                                 $3,080,600     Jun-2009         Sep-2010                          $641,647                         15
              Authority
              Netarts-
   OR         Oceanside              $20,995,000     Jul-2009         Oct-2010                         $3,397,416                        15
              Sanitary District
              City of Hood
   OR                                $22,976,300     Sep-2009         Mar-2011                                $0                         18
              River
              Town of St.
   VT                                 $3,100,000    May-2009          Sep-2009                         $2,878,496        4
              Johnsbury
   WA         City of Shelton        $28,857,000     Sep-2009          Jan-2010                      $ 13,018,576        4
   WV         City of Elkins         $29,075,000    May-2009                         May-2012                 $0                                          36
   WV         Big Bend PSD            $1,800,000    May-2009                         Feb-2012                 $0                                          33
   WV         City of War               $180,300    May-2009          Feb-2011                                $0                         21
 TOTAL                              $188,978,900                                                      $28,590,458
 The above table contains a listing of the 22 sampled projects, where projects are located, total RUS funding, funding obligation date, actual or
 estimated start date for construction, and elapsed time from the obligation date to the start or estimated start of construction.



  11
       Recovery.gov recipient reporting data as of March 31, 2011.
  12
       Estimated as of July 22, 2011.
                                                                                                                                              Attachment A
                                                                                                                                                Page 2 of 2
EXHIBIT B
Number of Jobs
                                                            Projected Number of Jobs
                                                                                                Number of Jobs
                        Project                                     Created13
                                                                                                  Created14

 City of Thomasville                                                    338.4                           0
 City of Dubois                                                         22.4                           1.92
 Town of Montezuma                                                      92.4                           5.3
 Twin Lakes Regional Sewer District                                     338.3                           0
 Garrison-Quincy-KY-O-Heights Water District                            81.1                           3.12
 Town of Jonesville                                                      7.0                           0.26
 Town of Farmington                                                      8.9                            0
 City of Hancock                                                        61.2                            0
 Atchison County Wholesale Water Commission                             336.6                           0
 Clara Water Association, Inc.                                           8.5                           9.96
 Mt. Comfort Water Association, Inc.                                    24.8                          12.18
 North Central Consortium-Radar Hill                                    47.7                          26.83
 Village of Ruidoso Downs                                               61.2                            0
 Town of Volney                                                         14.8                           8.8
 Roland Utility Authority                                               47.1                            14
 Netarts-Oceanside Sanitary District                                    347.3                         19.84
 City of Hood River                                                     351.5                           0
 Town of St. Johnsbury                                                  47.4                            5
 City of Shelton                                                        643.5                         71.03
 City of Elkins                                                         444.8                           0
 Big Bend PSD                                                           36.7                            0
 City Of War                                                            22.4                            0
 TOTAL                                                           3,384                        178.24
The above table contains the name of each sampled project and the estimated and actual jobs created or
retained between February 17, 2009, and March 31, 2011. Jobs created or retained are reported by
recipients each quarter on the Recovery.gov website. In some cases, we contacted RUS State officials or
recipients to confirm the number of jobs created; however, we did not confirm all of these figures.


13
   Figures provided by RUS National office. These figures are multiplier-based and were included in the project
summaries for each project. The multiplier was based on so many jobs per millions of project dollars and was
departmentwide.
14
   Recovery.gov recipient reporting data as of March 31, 2011, based on FTEs (Full-time equivalent).

                                                                                                   Attachment B
                                                                                                     Page 1 of 1
Agency’s Response




                    USDA’S



              RURAL DEVELOPMENT



        RESPONSE TO AUDIT REPORT
                                              United States Department of Agriculture
                                                        Rural Development


September 13, 2011


TO:                    Gil Harden
                       Assistant Inspector General for Audit

FROM:                  Dallas Tonsager /s/ Dallas Tonsager
                       Under Secretary
                       Rural Development

SUBJECT:               Report Regarding Project Transparency for the Water and Waste Disposal
                       System Recovery Act Projects
                       Audit # 09703-1-At(2)


Thank you for your Fast Report dated August 31, 2011 regarding your oversight activities
related to the water and waste disposal system program implementation of the funding
received through the American Recovery and Reinvestment Act of 2009, P.L. 111-5,
(Recovery Act). We are pleased that the Fast Report reconfirms that the timeliness and
application processing is administrated appropriately and is not in question. The report
does recommend that the Rural Development’s (RD) Rural Utilities Service (RUS)
explain on Recovery.gov the time periods associated with the various phases of
construction of water and waste disposal projects funded through the Recovery Act, as
well as its impact on related spending and jobs created. This memorandum will serve as
our reply to your recommendation.

Through the Recovery Act, the water and waste disposal loan and grant program
provided $3.261 billion for 854 projects in 50 states. Much progress has been made
toward construction of this much-needed rural infrastructure.

As of August 25, 2011, 586 (70 percent) of the 846 remaining projects1 funded have gone
out to bid, awarded contracts, are actively under construction or are completed. An
additional 10 percent of projects funded are in the process of going to bid. The remaining
projects are in the final design stage. We are pleased that in 84 recipient communities
where projects are complete, the public is already receiving the benefits of new or
improved infrastructure, and in 416 additional recipient communities the public can
witness active construction in progress.

The Fast Report’s primary focus is on ensuring that the public is made aware that RUS
water and waste disposal infrastructure projects funded through the Recovery Act have

1
    Eight projects were deobligated at the request of recipients after September 30, 2010.
                                     1400 Independence Ave., S.W. Washington, DC 20250-0700
                                                 Web: http://www.rurdev.usda.gov

                                              Committed to the future of rural communities.

                                        “USDA is an equal opportunity provider, employer and lender.”
            To file a complaint of discrimination write USDA, Director, Office of Civil Rights, 1400 Independence Avenue, S.W.,
                           Washington, DC 20250-9410 or call (800)795-3272 (voice) or (202) 720-6382 (TDD).
activities associated with them, such as design, permitting and bidding, that must be
completed prior to active construction starting. The report notes that actual construction
for the projects reviewed did not start immediately upon obligation. The primary concern
is that the public might not fully understand the progress of our projects or how they are
meeting the goals of the Recovery Act.

The scope of the Fast Report is limited to 5 percent of all water and waste projects funded
through the Recovery Act effort and is not indicative of the progress made to date as
detailed on page 1 on this memorandum. Further, there is no evidence provided in the
report of public concern regarding our progress.

We believe the portfolio of Recovery Act projects is progressing at an appropriate pace.
Given that the water and waste disposal projects funded by the program are to build or
enhance critical infrastructure meant to last 40 years or longer, it is important the projects
be well designed and constructed.

As communicated to the public in the RD Recovery Act Implementation Plan, RUS
implemented its water and waste funding through the existing loan and grant program.
The RUS Water and Waste Loan and Grant program is exclusively focused on rural water
and waste infrastructure needs, working with rural areas with populations of 10,000 or
less. Most RD projects serve areas well below 10,000 in population. In 2011, more than
half of the projects receiving funding serve populations of 1,500 or less. Eighty-two
percent serve populations below 5,000. In addition, applicants must demonstrate that
they need federal assistance because they cannot obtain credit from commercial lenders
or investors at affordable rates and terms. As such, the program is designed to address
the unique challenges faced by its applicants. For example, in most cases, rural
communities who participate in the program need funds to be obligated by RUS in order
to proceed toward what OIG considers actual construction. Engineering design,
permitting and other activities can be costly, and our applicants often do not have the
financial resources to pay for these activities prior to seeking federal funding. We do
require that a Preliminary Engineering Report and an Environmental Report are
submitted with the application; however, final design and other activities can be
completed post obligation. As such, RUS considers a project started at obligation and
includes pre-construction activities. Without this approach, many rural communities
would not be able to provide modern, reliable and affordable water and waste disposal
services to the families and businesses within them. We believe our Program and its
Recovery Act implementation fit squarely within the stated goals on Recovery.gov. As
you note in the Fast Report, Recovery.gov states that while many of the Recovery Act
projects are focused more immediately on jumpstarting the economy, others, especially
those involving infrastructure improvements, are expected to contribute to economic
growth for years to come.

With regard to public concern regarding our progress, the Agency has received positive
feedback regarding its Recovery Act implementation of water and waste loans and grants.
We attribute this to the significant progress made on the RUS water and waste disposal
Recovery Act projects, and to our efforts to inform the public of implementation
activities. However, we do appreciate OIG’s desire for additional public information on
the timing of our projects and process. While recipients and the communities they serve
have a keen understanding of our process, posting additional information on
Recovery.gov (as permitted) and our RD web site may assist the general public in better
understanding the program, our processes and our Recovery Act implementation.

RD is proud of the progress made to date by its Recovery Act water and waste funds
recipients. The jobs that will be created or saved through full implementation will be just
as critical and relevant to economic recovery as the jobs that have already been created or
saved to date. The Agency has invested significant resources and effort into tracking and
ensuring that projects funded fulfill the intent of the Recovery Act and proceed at a pace
that ensures that this critical infrastructure is built properly so as to serve rural
communities well into the future. The Agency is also committed to providing the public
with information regarding implementation and, to that end, will post additional
information regarding the program and processes on appropriate Recovery Act web sites.
